<html>
<title> - D.C. OPPORTUNITY SCHOLARSHIP PROGRAM: MAKING THE AMERICAN DREAM POSSIBLE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




    D.C. OPPORTUNITY SCHOLARSHIP PROGRAM: MAKING THE AMERICAN DREAM 
                                POSSIBLE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 2015

                               __________

                           Serial No. 114-38

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-871 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
            Christopher D'Angelo, Professional Staff Member
                           Sarah Vance, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 14, 2015.....................................     1

                               WITNESSES

The Hon. Tim Scott, A U.S. Senator from the State of South 
  Carolina
    Oral Statement...............................................    11
Mr. Patrick J. Wolf, Ph.D., Professor and 21st Century Chair in 
  School Choice, College of Education and Health Professions, 
  University of Arkansas
    Oral Statement...............................................    15
    Written Statement............................................    16
Ms. Shirley-Ann Tomdio, Former OSP Scholarship Recipient, Current 
  Student at the George Washington University
    Oral Statement...............................................    17
    Written Statement............................................    18
Ms. Seferash Teferra, Parent of OSP Scholarship Recipient
    Oral Statement...............................................    18
    Written Statement............................................    19
Ms. Megan Gallagher, Senior Research Associate, Urban Institute
    Oral Statement...............................................    19
    Written Statement............................................    20

 
    D.C. OPPORTUNITY SCHOLARSHIP PROGRAM: MAKING THE AMERICAN DREAM 
                                POSSIBLE

                              ----------                              


                         Thursday, May 14, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The Committee met, pursuant to notice, at 9:36 a.m., at 
Archbishop Carroll High School, 4300 Harewood Road, NE, 
Washington, D.C., Hon. Jason Chaffetz [chairman of the 
committee] presiding.
    Present: Representatives Chaffetz, Meadows, DeSantis, 
Walker, Blum; Cummings, Norton, and Welch.
    Also present: Representative Rokita.
    Ms. Blaufuss. Good morning. My name is Beth Blaufuss, and I 
am so privileged to be the president of Archbishop Carroll High 
School. And I want to welcome all of you to our school.
    Members of the House of Representatives, Senator Scott, our 
visitors, particularly from St. Thomas More and from Sacred 
Heart, this morning is about the promise of our young people. 
So, it is only fitting that I hand the microphone over to our 
student council president, Jordan Winston.
    [Applause.]
    Mr. Winston. Teachers, students, administrators, and 
guests, welcome to Archbishop Carroll High School. My name is 
Jordan Winston, and I am the president of student government 
here. And we are honored to host the Members of the House of 
Representatives, particularly D.C. Delegate Eleanor Holmes 
Norton.
    We would also like to thank Chairman Chaffetz, Senator 
Scott, and Ranking Member Cummings, for holding this hearing at 
our school. We are truly elated to have this opportunity to 
take part in such an important legislative process.
    On behalf of Archbishop Carroll, I, once again, would like 
to thank our guests for being here today. And I truly hope that 
you, the audience, enjoy this experience. Thank you.
    [Applause.]
    Ms. Blaufuss. Thank you. Our student ambassadors will 
remain in the main lobby. If there is anything that they can do 
for you--students, I will come back on the microphone at the 
conclusion of the hearing. So, thank you.
    Chairman Chaffetz. Well, thank you, and good morning. Thank 
you for your participation, and thank you so much for allowing 
us to come to this school. It is a wonderful opportunity for 
us; we need to do more field hearings, and be out. And we 
appreciate your participation today.
    This is an official hearing of the United States Congress, 
and so allow us to go through our formalities. And we will kick 
things off, and, again, thank you so much for hosting us here. 
And to the students, thanks for being able to be here and be 
part of this process.
    The Committee on Oversight and Government Reform will come 
to order. And, without objection, the chair is authorized to 
declare a recess at any time.
    We are here to discuss the ``D.C. Opportunity Scholarship 
Program: Making the American Dream Possible.'' We are extremely 
fortunate to be here on this site, at Archbishop Carroll High 
School, to talk about a program that is improving the education 
in the District of Columbia and for its students.
    Since the year 2004, the Opportunity Scholarship Program, 
often referred to as the OSP, has given around 6,000 students 
in the District the ability to attend the private school of 
their choice. The scholarship program targets students in 
struggling public schools located in low-income areas. Here, 54 
percent of students are choosing to attend Archbishop Carroll 
High School, with the help of the OSP. Giving students that 
choice has never been more important in the District than right 
now.
    The District of Columbia public schools rank at the top in 
spending per student, yet near the bottom in academic 
performance. As a personal note, I happen to represent the 
State of Utah. We happen to have the lowest per capita spending 
per student. It is not something we are necessarily proud of, 
but we are looking at--from my perspective, I get to see the 
two extremes: the lowest per-pupil spending in the nation 
happens in Utah; the highest per-pupil spending happens here, 
in the District of Columbia.
    But, really, it should be about academic performance, about 
graduation, about making the outcomes better, so that kids have 
a better opportunity in life. And that is, in part, why we are 
here today to have this discussion.
    Despite spending more per student than any other 
jurisdiction in the country, D.C. public schools continue to 
struggle when it comes to educating students. While the 
national graduation rate in the year 2014 was roughly 81 
percent, District public schools only graduated 58 percent of 
high school seniors. Realizing graduation rates were suffering 
in the District, in 2004 Congress adopted a 3-pronged approach 
in an effort to improve the quality of education. The 
Opportunity Scholarship Program was just one piece of that 
approach.
    Congress also appropriated funds directly to D.C. public 
schools to improve education, as well as funds to expand public 
charter schools in the District. This approach received broad, 
bipartisan support, including from D.C.'s mayor at the time, 
Anthony Williams. For the past 12 years, Congress has continued 
to provide the District with funding for all three programs.
    The results show that students who participate in the 
Opportunity Scholarship Program are more successful. Last year, 
89 percent of OSP students graduated from high school. And, on 
average, 92 percent of OSP graduates enroll in college or 
university. Those are amazing numbers, something to be proud 
of, and something that we will always want to strive to improve 
upon. But they are exceptionally good numbers. This stands in 
sharp contrast to the previously-mentioned average District 
graduation rate of just 58 percent.
    But statistics only say so much. Most convincing for me is 
the testimony parents who see their children improving and 
achieving, as a result of this scholarship program. We have a 
video of those parents, and I would like to play it now. It is 
just a minute-and-a-half or so, but if we could play the video, 
I would appreciate it.
    [Video shown.]
    Chairman Chaffetz. Thank you.
    [Applause.]
    Chairman Chaffetz. I think what you will find is that 
people on both sides of the aisle--certainly everybody on this 
dais here--wants to improve the quality of education for 
children. There is nothing more important to our future than 
making sure that our children are as well-educated as we can 
possibly be.
    And I want to extend a special thanks to Archbishop Carroll 
High School, led by President Blaufuss, Principal Dunn, for 
hosting us, the wonderful students who have made this all 
possible. Again, we thank you. We can't thank you enough for 
this, and we look forward to hearing from the witnesses today.
    Chairman Chaffetz. We have Mr. Rokita here, from the 
Committee on Education and Workforce, who is the chairman of 
the subcommittee that deals with K through 12, and I appreciate 
his attendance. I would ask unanimous consent that he be 
allowed to participate fully in today's hearing.
    [No response.]
    Chairman Chaffetz. Without objection, so ordered.
    I now recognize the distinguished ranking member, the 
gentleman from Maryland, Mr. Cummings, for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. Let me 
begin by saying to all of the children and young adults here 
today, I want to thank you for all that you are doing. I want 
to thank the teachers and I thank the Members who are here 
today. And I--it is wonderful to see smiling faces.
    Just last week, in Baltimore, we heard a young lady who was 
in the ninth grade. And she talked about how she was reading 
from a book that was published in 1973. And I thought about it, 
and that is when I came out of college. And so I know that 
here, you are working hard as you can to get an education. I 
have often said that the greatest investment that we can make 
is in education. That education allows you to better yourselves 
and to achieve what we want for all of our children: a life 
that is fulfilling and enriching, meaningful, and rewarding.
    I want to thank the parents and the family members, the 
teachers and the faculty who support these children, and 
provide them with this wonderful education. You have one of the 
most important missions in the world. You handle some of our 
most precious resources as a nation; you handle our children. 
And we entrust you with their lives and their futures every 
single day.
    Our number-one responsibility is to help our children 
figure out what their gifts are, and then we must help to 
nurture those gifts so that they may deliver them to the world. 
I have a saying that I have been using quite a bit up in 
Baltimore recently, which is that our children are the living 
messages we send to a future we will never see. We are the 
protectors of this generation. And we owe it to the next 
generation, and generations yet unborn, to give them the 
education they deserve.
    I know firsthand what an education can do. How can a son of 
two former sharecroppers with a third-grade education each be 
sitting before you today as a Member of the Congress of the 
United States of America? Because I was given an education. 
Because my family supported me every step of the way. I 
attended public schools in Baltimore, I attended college right 
across the road at Howard University, and I attended a law 
school at the University of Maryland. And now it is our turn to 
help our kids in our districts throughout the country to have 
the same opportunities we have.
    But here is a challenge we face: Speaker of the House John 
Boehner supports giving vouchers to students in the District of 
Columbia, and he personally pushed for more than $150 million 
to fund this program. Yet, at the same time, Speaker Boehner 
and the Republicans in the House of Representatives have put 
forth their education budget for the entire country. And it 
would result in $2.7 billion less than the Administration's 
budget for Title I education funds.
    Think about what I just said. This money would fund about 
10,000 schools with 38,000 teachers and aides, and 4.2 million 
students. More than 157,000 children will lose the opportunity 
to participate in Head Start. Special education funding would 
be $1.6 billion less, which could have supported up to 26,800 
special education teachers and other professionals.
    Personally, I do not understand how anyone can claim to be 
promoting the education of our nation's children when they are 
slashing billions of dollars from education funds across the 
country, while at the same time supporting lucrative tax breaks 
for the richest corporations and executives in our nation.
    On May 3, 2015, Speaker Boehner appeared on the Sunday news 
show, ``Meet the Press,'' and the host asked him about how we 
could improve schools in Baltimore and in the District. The 
speaker responded by saying, ``If money was going to solve the 
education probably--problem, we would have solved it decades 
ago.'' I am sure almost everyone in this room has friends or 
family members in schools, in other cities, and perhaps in this 
city, who do not want their budgets cut. Some of you may even 
have cousins up the road in Baltimore. Every child in this 
country--every child, every single child, everyone--deserves to 
have access to a high-quality education.
    The greatest threat to our national security would be our 
failure to properly educate every single one of our children.
    [Applause.]
    Mr. Cummings. The answer is not to slash billions of 
dollars from national education funding. The answer is not to 
provide vouchers to provide private schools. The answer is to 
invest more in our public schools, our education systems, our 
teachers, and our kids.
    Mr. Chairman, I sincerely hope that we can work together to 
make robust investments in education, so that all kids, whether 
they grow up in D.C., in Baltimore, Utah, anywhere else, have 
the same opportunity to get a high-quality education.
    And, as I go back to the young lady who addressed us in 
Baltimore, the one who was reading from the 1973 book, one of 
the things that came out during that period is she said, ``I am 
angry. I am angry that I have been deprived of the kind of 
education that would allow me to be all that God meant for me 
to be.''
    And that must be our challenge. We cannot leave any child 
behind. All of them, again, are bearing gifts. The question is 
will we help them to develop those gifts, so that they might 
deliver them to the world.
    And, with that, I yield back.
    Chairman Chaffetz. Thank the gentleman. We had unanimous 
consent to allow Mr. Rokita, from the Committee on Education 
and Workforce, the subcommittee chairman, we will now recognize 
him for five minutes.
    We are going to need that mic, sorry. We are going to need 
to pass that down. Thank you.
    Mr. Rokita. Well, thank you, and good morning, everybody. 
Well, good morning, everybody.
    I wanted to start by thanking Chairman Chaffetz for 
inviting me to offer a statement at this Oversight and 
Government Reform Committee field hearing on the D.C. 
Opportunity Scholarship Program. I also want to thank our hosts 
here, at Archbishop Carroll High School.
    The Members up here had a quick opportunity to tour this 
school. And let me just say, Mr. Chairman, I have been to 
schools--and Mr. Cummings--I have been to schools all across 
the country. I have seen some of the best schools in Indiana 
and across this country, and I have seen some of the worst. Not 
for lack of money, but for lack of leadership, lack of caring.
    You see, schools, Mr. Chairman, don't exist for adults. At 
least not the good ones. The good schools I have seen exist for 
the students. And that is what I saw already this morning at 
Carroll High School.
    And I know that the other schools represented here today by 
students, probably those same kind of great schools. You see, I 
could tell within the first minute or so, whether or not a good 
school. I could tell by the way it is orderly. I could tell by 
the attitude of people like Principal Blaufuss, who, the minute 
I--second I saw her, said, ``I get to be the principal of these 
students.'' I saw that here today, and I know it exists, again, 
at schools for the other students represented here today. I 
know, because I went to eight years of a Catholic school: St. 
Thomas More, the one in Indiana, not the one around here.
    You see, Mr. Cummings, schools that are good have a spirit, 
have an attitude that says in this profession, in this 
profession of teaching, in this profession of school 
administration, our profession doesn't exist for ourselves. It 
doesn't exist for a teacher's union. Like political service 
itself, we walk into it, and we work, and we exist for someone 
else. And in the case of a good school, it exists for the kids.
    As the chairman of the Subcommittee on Early Childhood 
Elementary and Secondary Education, I understand the 
challenge--I hope to understand the challenges many students 
and schools are facing. I understand the frustration of Mr. 
Cummings.
    Let me say this right now. Education budgets haven't been 
slashed. In fact, they are on par, and have slightly gone up. 
And since the Federal Government has been involved in the 
education business since the early 1970s, education spending 
has gone up 300 percent. And test scores, the best way to 
measure success of students, the best way we--one of the best 
measurement sticks we have, showing how much we care about 
students and their success, and the future that we are sending 
them into, as Mr. Cummings suggests, those test scores have 
been flat since the early 1970s.
    So, it is very much true that just throwing more money at 
something doesn't solve the problem. Again, it is not the 
structure you have, even though this is a very decent one. It 
is what goes on inside the structure that really, really 
matters. And that brings me back to the word I used at the 
beginning: leadership.
    We all believe--I challenge anyone to say that anyone up 
here or any adult in the United States believes that a child 
should be denied access to a high-quality education. We all 
think that access should be there. And that is what brings us 
to this hearing today. Parents, teachers, and school 
administrators I meet with are all too aware of the current 
state of our education system, and that it threatens the 
American Dream for the current and future generations of 
students.
    Leaving the world in better shape than we found it is as 
much a part of our American exceptionalism as the freedom we 
enjoy that allows us to pursue the American Dream in the first 
place. And I believe--we all believe--that a strong education 
system is essential to preserving that dream.
    I am concerned because, by many standards, the American 
Dream is under threat. We cannot build cities and strengthen 
communities if our citizens can't read. We cannot maintain the 
engaged citizenry needed to keep a free republic if our 
citizens cannot think critically. We cannot compete in an 
increasingly global economy if our citizens cannot add or 
subtract. And that is why I strongly believe--and I suspect 
everyone up here strongly believes--that a student's zip code, 
where you live, should not sentence that student to a failing 
school, just so that school can keep its doors open.
    Again, schools shouldn't exist for the adults in them, they 
should exist to serve the students in them. We should not just 
stand by and watch our students, the future generations of 
Americans, be retrained to failing and un-performing schools. 
That is why I believe it is our collective responsibility to do 
everything we can to help students access a high-quality school 
and education.
    And as my colleagues here know, and with a lot of their 
help, in January I reintroduced the Creating Hope and 
Opportunities for Individuals and Communities through Education 
Act, the CHOICE Act. It is H.R. 618. A good friend, who will 
testify here in a minute, Senator Tim Scott of South Carolina, 
introduced the companion legislation in the Senate, and I will 
let him speak in more detail about it. But let me just say that 
this legislation expands education opportunities and fosters 
success by providing students and parents greater choice in 
their education, just like the parents in that video explained.
    In addition to expanding school choice for individuals with 
disabilities in a pilot program for our military students, this 
Act would expand access to the D.C. Opportunity Scholarship 
Program by mandating excess carryover funds be used to promote 
the program and support additional scholarships for low-income 
families here, in Washington, D.C.
    As many people here know already, the D.C. Opportunity 
Scholarship Program is the first federally-funded scholarship 
program in the United States providing scholarship to low-
income residents of the District of Columbia to send their 
children to local participating private schools. No longer must 
a student be shackled to a low-performing school.
    Since 2004, the D.C. OSP program has served almost 6,000 
low-income children in Washington, D.C., and has become a model 
for effective public scholarship programs. The program received 
more than 3,600 applications for the 2014-2015 school year 
alone, Mr. Chairman. Currently, the enrollment wait list for 
D.C. public charter schools totals more than 22,000 applicants. 
There is a market here, Mr. Cummings. The 2010 program 
evaluation show that 82 percent of students offered 
scholarships through this program received a high school 
diploma, compared to 70 percent of those who applied but were 
not offered scholarships. It is working.
    Chairman Chaffetz. We thank the gentleman. You are well 
past the five minutes.
    Mr. Rokita. Sorry.
    Chairman Chaffetz. So I will----
    Mr. Rokita. I am used to having a clock in front of me, my 
apologies.
    Chairman Chaffetz. But we will insert the gentleman's full 
and complete testimony into the record.
    Mr. Rokita. I ask your support for H.R. 618.
    Chairman Chaffetz. We will now recognize the gentlewoman 
from the District of Columbia, Ms. Norton, who cares deeply 
about all issues of D.C., but certainly education. We 
appreciate her passion and commitment.
    I would also remind the audience this is an official 
congressional hearing. We would remind Members to address 
comments to the chair, and that the audience would be 
inappropriate at a congressional hearing to applaud and do 
those types of things.
    So, with that, we will now introduce, again, and recognize 
Ms. Holmes Norton for a very generous five-plus minutes.
    [Laughter.]
    Ms. Norton. Thank you very much, Mr. Chairman. I must say 
that you have given District of Columbia students a rare 
opportunity to actually be present at a House hearing. 
Normally, you would have to come to the House to have that 
opportunity. You might find some of them boring, you might not 
want that opportunity. But for this hearing, I think it is 
particularly suitable to be having this hearing at a D.C. 
public school [sic]. And I am very pleased to be back at 
Carroll, John Carroll. I am very proud to represent many of 
you, those of you who live in the District of Columbia.
    I want to thank your president, I want to thank your 
faculty, I want to thank your parents for providing you with 
such an excellent education.
    And, while I am here, I do want to say I hope that John 
Carroll knows about my D.C. students in the capital program. I 
don't think I have seen Carroll students for a while. Class by 
class, we ask you to bring students. And they not only meet 
with their congresswoman, they get a tour of the Capitol. We 
don't think any young person should graduate from high school 
in the District of Columbia without having been to the nation's 
Capitol.
    I would particularly like to welcome my constituents who 
are testifying here this morning. I applaud your commitment, 
your demonstrated commitment to education. And I want to be 
clear. My remarks today are addressed only to my colleagues, 
not to my constituents. This is, after all, a hearing, which is 
being held, and I expect the Speaker of the House to be here. 
This is a program that he, himself, set up. So this hearing is 
necessary for it to be reauthorized, but it is virtually a fait 
accompli, that it is going to be reauthorized.
    I want to be clear what it is I--that I am for, and what it 
is I do not support. As a mother, and now a grandmother, I 
understand and applaud parents who take advantage of every 
opportunity available for their children. If you get an 
opportunity, take it.
    Along with President Obama and my Democratic House and 
Senate colleagues, however, I support allowing the current 
District of Columbia voucher students to remain in the program 
until they graduate. But we do not support using federal 
dollars for, essentially, a new program, a program for new 
students to be admitted, particularly at a time when there are 
huge, slashing cuts being made to D.C. public-school programs.
    The Republican House is again seeking to impose its will on 
the District without the consent of D.C.'s locally-elected 
government or me, the only elected representative of the 
District of Columbia in Congress. Within the last month, this 
Committee, and then the House, tried but failed to overturn a 
local D.C. anti-discrimination law. Adding insult to injury, 
this Committee did not invite any locally-elected D.C. 
officials to testify on that law, or at today's hearing.
    If the D.C. Government wanted to create a private-school 
voucher program, it has the legislative authority under the 
Home Rule Act to do so. And it insists that its authority, as 
an independent jurisdiction of taxpaying citizens, be respected 
by this Congress.
    Republicans seem to lack the courage of their own 
convictions on private-school vouchers. Both the Republican 
House and Senate are currently considering legislation to 
reauthorize the Elementary and Secondary Education Act. 
Conspicuously absent from their Republican bill is a nationwide 
private-school voucher program. Why would Republicans impose a 
voucher program on the District, but not propose--even 
propose--expanding that program nationally? Could it be that 
Republicans recognize the lack of national support for 
vouchers?
    Since 1970, every single state referendum to establish a 
voucher program or tuition tax credit has failed. And none of 
the votes were even close. Americans want public funds used for 
publicly-accountable schools. The stated purpose of the D.C. 
voucher program is to help low-income students from low-
performing public schools to improve academically. However, the 
D.C. voucher program, which provides federal money to publicly 
unaccountable private schools, has failed to improve academic 
achievement.
    In the past, my D.C. voucher parents have visited me. And 
many said that they had tried to enroll in our popular D.C. 
public charter schools, but could not because of long waiting 
lists. If Congress sincerely wanted to help students in the 
District, it would direct the voucher funds to D.C.'s robust 
home rule public school choice, our publicly-accountable 
charter schools.
    The D.C. voucher results are consistent with studies that 
show that school voucher programs across the country have 
failed to improve academic achievement. The latest data 
available on the D.C. voucher program is from a 2010 U.S. 
Department of Education study. The study, conducted by one of 
the Republican's own witnesses today, Professor Patrick Wolf, 
found: ``no conclusive evidence that the program affected 
student achievement, as measured by math and test results.''
    Most important, the study found there was:--again, ``no 
significant impacts'' on the achievement of students who the 
program was designed to most benefit, students who previously 
attended public schools, identified for improvement, corrective 
action, or restructuring under the ESEA.
    While the Department of Education study found that the D.C. 
voucher program improved high school graduation rates, the 
study did not examine the rigor of voucher schools' 
curriculums, or graduation requirements. In fact, the higher 
graduation rates, together with flat test scores, suggest that 
voucher students may have attended schools with less rigorous 
curriculums and graduation requirements.
    The Department of Education study did find that D.C. 
vouchers improved parents' ratings of school safety and 
satisfaction. However, the study did not find that vouchers 
improved the ratings of school safety and satisfaction for the 
most important group: the students, themselves.
    Although I am a proud graduate of the D.C. public schools, 
and strongly support our traditional public schools, I have 
always supported, and strongly so, public charter school 
alternatives for those parents who are dissatisfied with the 
D.C. public schools. Children cannot wait until traditional 
public schools meet the necessary standards. This is true, even 
though the D.C. public schools have made some of the most 
impressive improvements in the country, by any measure.
    D.C. public school enrollment has grown by 22,357 students 
in the last 4 years, the first enrollment growth in 39 years. 
In 2014, D.C. public school students reached their highest 
proficiency rates ever in reading and math. In the last 8 
years, the percentage of students who were proficient in 
reading increased 13 points to 47.7 percent. And, in math, 
increased 22.6 percentage points to 51.1 percent. I challenge 
the D.C. voucher schools to demonstrate comparable improvement.
    In the last four years, the four-year graduation rate for 
D.C. public schools has increased from 53 to 58 percent. D.C. 
public-school test and graduation rates are comparable to other 
urban school districts. D.C. charter schools are publicly-
funded and independently run, under the supervision of the D.C. 
public charter school board. D.C. charter schools are tied for 
third-largest percentage of public charter-school students in 
the nation, educating 37,684 students, or 44 percent of our 
D.C. public-school students.
    The first public charter school was opened in 1996, and 
there are now 112 public charter schools. D.C. charter schools 
have higher educational achievement and attainment than D.C. 
public schools. D.C. charter schools out-perform D.C. public 
schools across traditionally disadvantaged groups, including 
African-American and low-income students, and have a higher 
percentage of such students, precisely the students the D.C. 
voucher program was ostensibly designed to serve. Sixty percent 
of D.C. charter school students are proficient in math, and 
53.4 percent are proficient in reading. Seventy-nine percent of 
D.C. charter students graduate.
    It is important to review the role of Congress in the 
creation of D.C. charter schools and vouchers, to understand 
the democratic and undemocratic way to help the District. We 
worked collaboratively with then-Speaker Newt Gingrich to 
create the robust charter school system we have today. Newt 
came to me and said he was considering a voucher program in 
D.C. I told him of public opposition to vouchers in the city, 
and urged him to defer to the already existing fledgling 
charter school system that had been created by the District.
    At the time, the charter schools in the District had 
attracted few charters. Working together with Speaker Gingrich, 
we were able to get Congress to pass the District of Columbia 
School Reform Act of 1995, which created a new charter school 
system in the District, leading to the large-scale, robust 
alternative public charter school system enthusiastically 
supported by D.C. residents today. The long waiting lists in 
our charter schools are the best evidence of their quality, and 
their embrace by our parents and residents, as the city's own 
home rule choice. Yet Republicans in Congress later imposed a 
voucher program on D.C. anyway, and are attempting to do so 
again.
    I want to clear up a misconception about the D.C. voucher 
program funding. The original authorization of the program 
contained funding for private-school vouchers only. It did not 
contain any funding for D.C. public schools or charter schools. 
I insisted that D.C. public schools and charter schools be 
funded, too. I worked with the then-Archbishop of Washington, 
Theodore Edgar McCarrick, who strongly supported vouchers--and 
the majority of voucher students attended Catholic schools--to 
get funding also for D.C. public schools and charter schools. 
The current authorization includes that funding.
    If Republicans want to give the District funds for 
education, why not ask us how we could best use the money? Is 
that not the way to treat taxpaying American citizens?
    D.C. public schools are improving so significantly, and our 
public schools and our charter schools are in such great 
demand, that many of these schools, both the public schools and 
the charter schools, have long waiting lists. Why, then, expand 
a congressionally-sponsored private-school program for the 
city? The answer, of course, is abuse of power. It is the same 
congressional abuse and disrespect evidenced by Congress in 
trying to overturn two D.C. anti-discrimination laws.
    We do appreciate the congressional interest in our 
children. We ask all of them--we ask that all of them now in 
the voucher program be allowed to continue until they graduate 
from high school. We ask only for congressional respect for the 
people of the District, who have built their own home rule 
public school choice alternative to their traditional public 
schools.
    Any new funding for education in the District should 
reinforce the hard work of our city, parents, and residents who 
have shown the nation that they know how to build an 
alternative to our public-school system. They should be 
heralded by Congress as an example to most U.S. school 
districts which have, in contrast to the District of Columbia, 
significantly limited school choice, and spurned public charter 
schools. D.C. residents know what to do without the benefit of 
congressional paternalism, instruction, or intervention.
    I thank you, Mr. Chairman.
    Chairman Chaffetz. We will hold the record open for five 
legislative days for any Members who would like to submit a 
written statement.
    We will now--we have two panels today. First panel, we are 
honored to have Senator Tim Scott of South Carolina. Senator 
Scott's----
    [Applause.]
    Chairman Chaffetz. Senator Scott is an inspiration to a lot 
of people, and he has broken through a lot of barriers in his 
life. His life story is an inspiration. It is to me, and I 
think to lots of others. He is one of the most decent human 
beings I have ever come in contact--it was an honor and a 
privilege to serve with him when he served in the House of 
Representatives. Honored that he is serving in the United 
States Senate. And we are pleased that he is here today.
    We now recognize Senator Scott.

                       WITNESS STATEMENTS

 STATEMENT OF HON. TIM SCOTT, A UNITED STATES SENATOR FROM THE 
                    STATE OF SOUTH CAROLINA

    Senator Scott. Thank you, Mr. Chairman. It is certainly a 
privilege to have an opportunity to speak before this August 
group, as well as before the students here, at the Archbishop 
Carroll High School. Certainly, I think the students are 
already learning something about our ability in Congress to 
tell time. It is remarkable.
    [Laughter.]
    Senator Scott. I assure you that I will add to the 
confusion, as my five minutes will not be measured in real, 
human time.
    [Laughter.]
    Senator Scott. House Members have the ability to restrain 
themselves in a way that Senators have not learned so well. So 
I am just excited to be in good company with all of us who are 
going to run over our five minutes. And we do apologize in 
advance, even though we will do it anyways.
    Mr. Chairman, thank you for calling this very important 
hearing on an issue that I believe is critical to combating 
poverty, to unleashing our economy, and ensuring that students 
across the nation have an opportunity to fulfill their god-
given abilities. And for that conversation to start at the 
Nation's Capital, where we have students benefitting from the 
Opportunity Scholarship, it just seems appropriate that the 
generation to come will be better because of the D.C. OSP, 
Opportunity Scholarship.
    I also want to thank Archbishop Carroll High School, along 
with the president and the board of directors, the parents, the 
teachers, and, of course, the students here, for hosting us on 
their amazing campus.
    I do want to extend a unique congratulations, Mr. Chairman, 
to the student government president here, who did a fabulous 
job in his remarks this morning, Mr.--I say Mr. Jordan Winston. 
I was once a student government president at a high school, 
myself. I would say to all the students, and particularly to 
Mr. Winston, all things are truly possible in America. I am 
reminded very much of the success of this young man, and I look 
around, and I think to myself that the future is better because 
the next generation is smarter than the current generation. And 
so I am excited about that.
    Unfortunately, you will hear today a lot of chat about 
Democrats and Republicans. I honestly will tell you, although I 
am certainly a Republican, that I think the focus on Rs and Ds, 
blue and red, is the wrong focus. The focus has to be on the 
kids. This is not a political conversation. There is no 
question of political tentacles in the conversation around 
education. But part of the problem is we continue to have a 
conversation about Rs and Ds. What we need to have, what we 
must have, is a conversation about the future of our children, 
all of our kids.
    And the question I ask myself very often is how do we see 
the manifestation of Proverbs 22:6? How do we train up children 
in the way that they should go, and when they are older, they 
benefit from that solid foundation?
    I hope we hear a lot of conversations about that today. I 
hope that, as you hear from the kids and parents and others who 
will testify, that you will hear stories that are truly 
journeys, journeys that started on rough road, journeys that 
started in little houses and trailers and small apartments, 
journeys that started very much like my journey, having grown 
up in a single-parent household, living in real poverty, and 
another place that has had its challenges, and played out in 
the news, in North Charleston, South Carolina, where Mr. Walter 
Scott was shot.
    I will tell you that when we get serious about the issue of 
education, we get serious about unleashing human potential. One 
of my friends, Trey Gowdy, said that the closest thing to magic 
in America is education. I am a product of public schools. I 
like, love, and appreciate good public schools. But I refuse to 
allow any child anywhere in this nation trapped in the wrong 
zip code in an underperforming school, to continue to have to 
go to a school that is inconsistent with the future of that 
child.
    And so, that is why we find ourselves here today. Growing 
up in poverty was a very difficult time for me. I was one of 
those kids that yearned for a male role model, for guidance, 
for structure, for discipline. And so I started drifting. And 
all the drifting seems to go in the wrong direction. And by the 
time I was a freshman in high school, I was flunking out of 
high school. I may be one of the few United States Senators to 
ever fail out of high school. I don't recommend that, by the 
way.
    [Laughter.]
    Senator Scott. I failed world geography. I know I am the 
only one that ever failed civics, the study of politics. And 
then I went to the U.S. Senate and realized I have plenty of 
company in that area.
    [Laughter.]
    Senator Scott. You can always talk bad about yourself. 
Anyways, I will give you all time to digest that humor. It is 
the best I have, so it won't get any better than that.
    But I also went on to fail Spanish and English. When you 
fail Spanish and English, no one calls you bilingual. They all 
call you bi-ign'ant, because you can't speak in any language. 
And that is where I found my unhappy self.
    But I had the good fortune of a mother who believed in the 
power of education, a mother who believed in the power of hope, 
the mother who believed in the power of the future. And she 
took me and encouraged me in tangible ways. I will talk about 
that next time. And it turned out to my benefit. And over the 
next three years, I was able to catch up with my class, and 
graduate on time, go to college.
    Why are these things so important? Why are the statistics 
that we have heard this morning so powerful and so important? I 
want to reframe some of the statistics, and talk about what 
they mean in real life, as adults.
    Since 2004, 6,000 students have come through the OSP 
program. Ninety-plus percent of those students graduated on 
time. Ninety-eight percent--just last year, ninety-eight 
percent of the OSP students went on to a two-year or four-year 
degree. Ninety-three percent, just in the last two years, 
graduated on time, versus fifty-eight percent in other D.C. 
public schools.
    This, these are statistics for families who have an income 
under $21,000, on average. We are talking about the difference 
between spending around $20,000 for the normal public schools 
here, in D.C., versus spending about $8,500 for D.C. 
Opportunity Scholarships.
    So, in other words, for $.40 on the dollar, you don't get a 
58 percent graduation rate, you get a 93 percent graduation 
rate. You get 98 percent of those students going on to a 2-year 
or a 4-year institution.
    And how does that translate for a life? Why are these 
statistics so important for the students and their parents? 
Well, it is because a high school dropout--and if we think 
about the impact of education, especially on people of color, 
half of African-American males, like me, do not finish high 
school in four years. Well, for those students who don't 
graduate from high school, their income, annually, is around 
$19,000. One, nine, nineteen-thousand. For those students who 
continue on and graduate from high school, their income is 
around $28,000. For those students who go on to get an advanced 
degree, or bachelor's degree, the income is around $52,000.
    How does that translate into employment? Well, for people 
of color, the persistent unemployment rate, in aggregate, is 
around 10.5 percent. African-Americans with a college degree, 
it is less than half. The poverty rate, 27 percent, people of 
color; 15 percent for all Americans. Significantly lower for 
African-Americans, Hispanics, with a college degree.
    You see, for me, the reason why I sponsored and crafted the 
CHOICE Act--and I thank Congressman Rokita for taking up the 
legislation--is because I know that hope begins in a strong 
family structure. Hope begins in a faith-filled environment. 
And hope begins in the hearts and the minds of students who are 
properly equipped with education.
    I hope that, as we have this debate of how to use public 
dollars, and sometimes private institutions, that we don't 
forget that the Pell Grant that students who graduate from high 
school receive--students who don't graduate from high school 
don't benefit from the Pell Grant. So, we take the Pell Grant, 
public dollars, to private colleges every single day. I took my 
Pell Grant, along with a small football scholarship--and I do 
mean small--to a school, a private school, private Christian 
school. And it allowed me to get a amazing education.
    I am passionate about this issue. I am passionate about 
this issue because I have seen what it has done for my family. 
I have seen what it has done for myself. I have seen what it 
has done for my community.
    And now that I am at 4 minutes and 30 seconds, Mr. 
Chairman, I will close.
    [Laughter.]
    Senator Scott. I can't tell time, either. I apologize.
    I didn't come up with this quote, but I do think the quote 
is absolutely perfect: ``When parents have better choices, 
their kids have a better chance.'' Education really is, today, 
a major component of the American Dream.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. Thank the Senator.
    [Applause.]
    Chairman Chaffetz. Senator, thank you so much for your 
participation and your passion and your inspiration to so many 
people. We appreciate your presence here today.
    We are now going to take a two-minute break while we 
reconfigure the panel here. And so give us two minutes, and we 
will be back and continue the hearing from there.
    Senator, thank you.
    [Recess.]
    Chairman Chaffetz. We are now pleased to recognize our 
second panel of witnesses. I am pleased to welcome Dr. Patrick 
Wolf, who is a professor and 21st century chair in school 
choice at the College of Education and Health Professions at 
the University of Arkansas.
    Ms. Shirley-Ann Tomdio--did I pronounce it--Tomdio --former 
Opportunity Scholarship Program recipient, and a student at the 
George Washington University. Thank you for being here.
    And Ms.--I want to make sure I pronounce this--Seferash 
Teferra--oh, good, thank you for being here--she is the parent 
of an Opportunity Scholarship Program recipient.
    And we have Ms. Megan Gallagher, a senior research 
associate at the Urban Institute.
    Welcome, all. Pursuant to committee rules, all witnesses 
are sworn to be--before they--to testify, are to be sworn in. 
So we need you to stand, rise, and raise your right hand, 
please.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. You may be seated. And let 
the record reflect that all witnesses answered in the 
affirmative.
    We are going to try to limit your initial comments to five 
minutes. We haven't been so--haven't been good at it so far, 
but we are going to start now by recognizing Mr. Wolf for five 
minutes.
    And if you could bring that microphone up nice and close, 
we would appreciate it. And Mr. Wolf is now recognized for five 
minutes.

                  STATEMENT OF PATRICK J. WOLF

    Mr. Wolf. Chairman Chaffetz, Ranking Member Cummings, 
distinguished members----
    Chairman Chaffetz. I think we are going to need a little 
bit closer, sorry. Yes, there we go.
    Mr. Wolf. I am pleased to be here with you today to discuss 
my professional judgement regarding the D.C. Opportunity 
Scholarship program, or OSP. I speak on behalf of myself, as an 
independent scholar. My testimony does not necessarily 
represent any official position of my employer, the University 
of Arkansas.
    My research teams have conducted most of the scientific 
evaluations of private school choice programs in the United 
States. The Department of Education's Institute of Education 
Sciences selected me to lead the government evaluation of the 
OSP during its original pilot from 2004 to 2010.
    Since lotteries determined if eligible students did or did 
not receive an Opportunity Scholarship, we were able to use a 
gold standard experimental research design to determine what 
impact the OSP had on participants.
    Students in our pioneering study graduated from high school 
at significantly higher rates, as a result of the OSP. 
Congressman Rokita mentioned the very conservative estimates of 
the impact of a mere offer of a scholarship was to improve the 
graduation rates to 82 percent from 70 percent--as 12 
percentage-point gain.
    But when you factor in that some of the scholarship 
recipients never used their scholarship, we can calculate a 
scientifically-valid estimate that the use of an Opportunity 
Scholarship increased the likelihood of a student graduating by 
21 percentage points, from 70 percent to 91 percent. In 
scientific terms, we are more than 99 percent confident that 
access to school choice through the OSP was the reason why 
students in the program graduated at these much higher rates. 
And many of them graduated from this very institution, 
Archbishop Carroll High School.
    Mr. Chairman, graduating from high school is an economic 
imperative. Those are not my words, but the words of President 
Obama in a speech to the U.S. Chamber of Commerce in 2010. Each 
additional high school graduate saves the nation an average of 
$260,000, due to increased taxes on higher lifetime earnings 
and lower law enforcement and welfare costs. Thus, the 449 
additional high school graduates, due to the operation of the 
OSP during its pilot, produced a return on investment of $2.62 
for every dollar spent.
    The D.C. OSP is not the only private school choice program 
to demonstrate a clear and dramatic impact on boosting 
educational attainment. My research team similarly found that 
the Milwaukee Parental Choice Program significantly increased 
the rates of high school graduation, college enrollment, and 
persistence in college for the low-income students 
participating in our nation's oldest urban private school 
choice program.
    Researchers at Harvard University and the Brookings 
Institution determined that a privately-funded K-12 scholarship 
program in New York City significantly increased the rate at 
which African-American and immigrant students enrolled in 
college.
    Increasingly and consistently, researchers are finding that 
private school choice programs like the OSP enable students to 
go farther in school. Evidence that students achieved higher 
test scores due to the OSP was only consistently conclusive in 
reading and for three subgroups of students: namely, females; 
students with relatively higher performance at baseline; and 
students transferring from better-performing public schools. 
Parents were more satisfied with their child's school as a 
result of the OSP, and rated their schools safer.
    When a previous Congress closed the OSP to new students, 
and reduced its funding, the OSP parents put actions behind 
their positive words about the program. They rose up in 
peaceful protest, participated in rallies, writing letters to 
Congress, and testifying at hearings like this one to save the 
program. And we see several parents back to testify again. So 
this empowerment continues. Ultimately, the parents triumphed, 
as the OSP was reauthorized and expanded in 2011, with passage 
of the SOAR Act. That entire amazing story is captured in a 
book I recently coauthored called ``The School Choice Journey: 
School Vouchers and the Empowerment of Urban Parents.''
    The research record from the carefully-studied pilot period 
of the D.C. OSP is filled with good news. Students graduated 
from high school at much higher rates, due to the use of a 
scholarship. The program appears to have had a positive effect 
on student reading test scores, but we can only have a high 
level of confidence about that for certain subgroups of 
students. Parents have been empowered, and report that their 
children are in better and safer schools.
    Thank you, Mr. Chairman and members of the committee. I am 
happy to answer questions.
    [Prepared statement of Mr. Wolf follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/d-c-opportunity-
scholarship-program-making-the-american-dream-possible/
    Chairman Chaffetz. Thank you. We appreciate it.
    If you could please pass the microphone, and we will now 
recognize Ms. Tomdio for five minutes.
    Keep that microphone nice and close, if you could.

                STATEMENT OF SHIRLEY-ANN TOMDIO

    Ms. Tomdio. Good morning, Mr. Chairman and members of the 
committee. I am very honored to be given the opportunity to 
share my journey with you all today.
    My name is Shirley-Ann Tomdio. I was a recipient of the 
D.C. Opportunity Scholarship for nine years. My journey began 
in the fourth grade, when I transferred from a D.C. public 
school to Sacred Heart School after my father applied for the 
scholarship. What this opportunity would do for my family was 
unpredictable.
    My parents, born and raised in Cameroon, Africa, had come 
to the United States seeking a better life for themselves and 
for their children. Little did they know how much their hard 
work would pay off. After hearing about the scholarship 
opportunity, my father quickly applied and then enrolled my 
younger brother and sister and me in Sacred Heart School.
    My parents' efforts to get us to school each day gave my 
siblings and me dedication. My mother worked and attended 
nursing school through most of my education. My father would 
drive us to school every morning before going to work. And, 
because he was well aware of the tremendous opportunities our 
scholarship afforded us, he was always very involved at our 
school. I am certain that it was exhausting for them, but they 
never showed it.
    In 2009, I graduated from Sacred Heart School as the 
valedictorian of--as the valedictorian, and took my Opportunity 
Scholarship across town to Georgetown Visitation. At 
Visitation, I made second honors my first two years, and first 
honors my third and fourth year. I was a decorated member of 
the track and field team, co-editor of our school's art and 
literary magazine, cheerleader for our school's pep rally, 
secretary and treasurer for the Black Women's Society. I 
participated as a violinist in our orchestra for four years, 
and was a president my senior year.
    In May 2013, I walked across the stage and accepted my 
diploma. My parents were really seeing the results of their 
devotion to our quality education. They now watch as their 
first-born child heads to the George Washington University on 
the pre-med track.
    Today, I have successfully completed my sophomore year at 
GW. I have maintained good grades, was a member of the gospel 
voice--gospel choir, and was an officer for the Black Women's 
Forum. I am majoring in exercise science, with a minor in 
French. My ultimate goal is to become an orthopedic surgeon, 
and my future success will surely consist not only of my 
parents' efforts, but those of the Opportunity Scholarship 
Program.
    Attending an institution that allows the student to excel 
gives him or her the chance to speak up when something is not 
understood, and develop a relationship with other peers and 
teachers is what this program has done for its recipients. 
Being in an environment we are certain works and provides does 
so much more than I can believe--than I believe I can speak to.
    Every child should have the chance to receive a quality 
education because, at the end of the day, we are the future. We 
want to grow in a world where, knowing that our lives are 
secure, and that we can be successful, because our education 
was never limited by our backgrounds, traditions, race, or 
socio-economic standings. What really matters are the 
individuals that come from these opportunities.
    This scholarship has allowed me to build a strong 
foundation for myself. As the oldest, I have set an example for 
my siblings and, most importantly, myself. The D.C. OSP 
continues to instill in me the courage and strength to continue 
on my journey each day, and make the most of my opportunities. 
I know that my limits are endless. So should every child out 
there with a dream. Thank you.
    [Prepared statement of Ms. Tomdio follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/d-c-opportunity-
scholarship-program-making-the-american-dream-possible/
    Chairman Chaffetz. Thank you. Appreciate that.
    [Applause.]
    Chairman Chaffetz. Pass the microphone there. We will now 
recognize Ms. Teferra for five minutes. If you can bring that 
microphone nice and close, that would be very much appreciated.
    Ms. Teferra. Good morning.
    Chairman Chaffetz. Even a little bit closer, if you could, 
sorry. Yes, thank you.

                 STATEMENT OF SEFERASH TEFERRA

    Ms. Teferra. Good morning Chairman Chaffetz, Congress, 
staff, parents, and students. My name is Seferash Teferra, and 
I am a Ward 4 resident of the District of Columbia. I have 
lived in the District of Columbia for the past 12 years. I have 
one child, Yalemwork Teferra. We are an Opportunity Scholarship 
family, and this is currently our second year taking advantage 
of this wonderful program.
    My child was a student for eight years at E.L. Haynes 
public charter school. Yalemwork was not being pushed to her 
full potential capacity. She was always ahead. And, despite our 
endless fight for more challenging classes and material for 
advanced students, the school failed to meet our needs. In 
addition, Yalemwork felt isolated from the community, and did 
not view it as an optimal place to learn.
    My daughter has massive potential, and a love for learning 
that my income could not accommodate. Yalemwork had her eye set 
on Sidwell Friends School for a long time, and we hoped that 
the OSP program would be financially able to help her dreams 
come true. Because of the OSP, Yalemwork is in an academic 
community where she is thriving. She not only loves the school 
immensely, and is so passionate about learning, but she is a 
head of three clubs and started one of her own.
    In addition, she does volunteer work, both in/out of her 
school, and is a friendly face in the community. Yalemwork is 
incredibly involved in activism scene at her school, and is 
involved in all social justice issues. She is not only a part 
of FEM, F-E-M, Female Empowerment Mission; BSU, Black Student 
Union; Debate Team; the Democratic Civil Club; Civil Eyes, a 
club dedicated to combating issues of racial and gender 
inequality, but has started her own club called BASA, Brothers 
and Sisters in Africa, to help address issues prevalent in 
Africa, and allow the important discussion of Africa rich 
history and current oppression to be addressed in the Sidwell 
community. Her heavy involvement in the social justice scene at 
her school has sparked her interest in politics.
    Yalemwork would not have had the opportunity to attend 
Sidwell, as my income was not able to support her, and pay for 
her tuition were it not for the OSP. Honestly, I believe that 
the key in the limit regarding Yalemwork future thanks to the 
help to OSP [sic]. Her attending Sidwell has allowed her to 
realize her full potential and allowed her passions to 
flourish.
    The Opportunity Scholarship Program is an amazing program 
that helps people like my daughter, Yalemwork, and let their 
dreams come true. The government and all elected officials 
should absolutely back this program so it can help the many 
financially-struggling youth reach their full potential, and 
allow their dreams to come true. I cannot believe there are 
some people who do not support this program, and would doubt 
its ability to help families choose a path best suited to their 
individual child's education.
    Please, Members of Congress, continue to support the 
Opportunity Scholarship Program so it can continue the amazing 
work it does in transforming our young people's lives.
    [Prepared statement of Ms. Teferra follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/d-c-opportunity-
scholarship-program-making-the-american-dream-possible/
    Chairman Chaffetz. Thank you. Appreciate that.
    Ms. Gallagher is now recognized for five minutes.

                  STATEMENT OF MEGAN GALLAGHER

    Ms. Gallagher. Thank you, good morning. My name is Megan 
Gallagher, and I am a senior research associate at the Urban 
Institute. The non-profit Urban Institute is dedicated to 
elevating the debate on social and economic policy research. 
Today I am here to provide an evidence-based perspective on the 
relative merits of the Opportunity Scholarship Program. The 
views expressed are mine, and should not be attributed to the 
Urban Institute, its trustees, or its funders.
    This hearing is being held in a school in a D.C. community, 
not on Capitol Hill. There are parents in this room who are 
making the most out of their resources to improve their 
children's opportunities. The OSP represents one of the 
resources available to parents in D.C.
    Back in 2004, when the OSP was first created, the 
educational landscape of D.C. was far different. Since then, 
the number of charter schools has doubled, and children can 
apply to attend almost any public school in the whole city. 
Public school enrollment has increased by eight percent. 
Private school enrollment in elementary and middle schools has 
decreased by half. Those shifts represent a major change in the 
landscape.
    But, importantly, public schools have also gained ground on 
standardized tests. Fourth-grade proficiency rates in math and 
reading have more than doubled since 2004, from 10 to 25 
percent. And scores on D.C.'s own standardized test have 
consistently improved over the same time period. All groups, 
including students from lower-income families and Hispanic and 
black students have experienced improvements.
    There is still a great deal of work to do in D.C. to 
promote meaningful choice for every student. But it is not 
clear that OSP is the best strategy. The OSP has been evaluated 
along two dimensions: the direct benefits it provides to 
students, and the indirect benefits it provides to the D.C. 
school system.
    The 2010 evaluation of OSP that Mr. Wolf cited found that 
the evidence is mixed on direct student benefits. It found 
improved parent satisfaction and parent-reported graduation 
rates, but reading and math test scores of recipients and non-
recipients were not different from one another after four 
years. The design of the study is strong, and was able to 
address many of the questions that previous studies were not 
able to tackle regarding differences between scholarship 
recipients and non-recipients.
    There are, however, two important shortcomings to that 2010 
evaluation. First, parent-reported graduation rates may differ 
from actual graduation rates. Second, other important outcomes 
were not examined in the evaluation. We should have learned 
more about how the vouchers affected outcomes like five-year 
graduation rates and college enrollment.
    Then there is the question of whether OSP indirectly 
benefits the public school system. The 2010 evaluation of OSP 
found that student mobility across schools is so high in D.C. 
that voucher holders' departures or threats of departures are 
indistinguishable from other sources of student mobility and, 
therefore, unlikely to drive change at those schools.
    In terms of sheer scope and scale in D.C., students 
choosing to attend charter schools and DCPS schools through 
open enrollment policies are likely to have more of an 
influence on school improvement than OSP. For every OSP 
enrollee, there are 24 students in charter schools. And 16 
students that have enrolled in a DCPS school of their choice.
    Plus, a number of other factors than school choice may be 
contributing to public school improvement, making it difficult 
to detect differences between OSP recipients and non-
recipients.
    Research from other cities on vouchers is no more 
convincing. Past research from multiple cities has found that, 
if there are any direct benefits of vouchers on student 
achievement, they are small or not different from zero. It also 
found that there is little evidence that vouchers drive 
improvements in public school systems.
    In summary, the evidence that OSP improves student 
achievement is inconclusive. We also don't know enough about 
how the vouchers affect outcomes like graduation and college 
enrollment. And, while the D.C. school system continues to 
improve and offer expanded school choices, it isn't clear that 
OSP has contributed to those changes. Evidence may be 
forthcoming, but it does not exist today.
    Thank you for the opportunity to testify.
    [Prepared statement of Ms. Gallagher follows:]
    For complete submitted testimony, please see the following 
website: https://oversight.house.gov/hearing/d-c-opportunity-
scholarship-program-making-the-american-dream-possible/
    Chairman Chaffetz. Thank you.
    [Applause.]
    Chairman Chaffetz. We will now recognize the gentleman from 
North Carolina, Mr. Meadows, for five minutes.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you to all 
the students that are here. Obviously, it is very gratifying, 
when we get to see the success of so many, really, our future.
    And so, Ms. Gallagher, I want to start with you. You say 
there was no evidence to support that. Is there evidence to 
support your claims that it is actually hurting? Because I 
didn't hear you report any studies to the contrary. So you just 
said it was ambiguous. Is that correct?
    Ms. Gallagher. There is no evidence to support the--that a 
voucher program is improving student outcomes. There is no 
evidence that it is harming students, either.
    Mr. Meadows. All right. So, at worst case, then, we are 
giving students and parents a choice, because we offer them a 
scholarship to go to a school of their choosing. That is the 
worst case scenario. If we are making a mistake, as Members of 
Congress, that is the worst that we are doing, is we are giving 
them a better choice?
    Ms. Gallagher. Well, that is a tough question. I think 
that, as policy-makers, I think----
    Mr. Meadows. No, I am talking about--not really as policy-
makers. What I am talking about is parents and students--
really, when we look at this, is this not about just giving 
them another choice?
    Ms. Gallagher. I think each family needs to make the choice 
that is best for his or her child.
    Mr. Meadows. I totally agree. And so, if we have this 
program that gives them a scholarship, and they get to go 
somewhere of their choosing, do you not see that that is a good 
thing?
    Ms. Gallagher. I think that we need more solid evidence on 
the benefits of the program before directing more funding 
towards it.
    Mr. Meadows. So let me follow up on that line of 
questioning, then. I take it you probably went to higher 
education.
    Ms. Gallagher. I did.
    Mr. Meadows. Okay. Were you forced to go to a public school 
in your state of residence?
    Ms. Gallagher. [No response.]
    Mr. Meadows. I don't think you were. Were you forced to 
go--in higher education, were you forced to go to a public 
school in your particular state or locality?
    Ms. Gallagher. In higher education I was not. But in 
elementary----
    Mr. Meadows. No, that was the question.
    Ms. Gallagher.--and secondary education, I was.
    Mr. Meadows. So, if you were not forced in higher 
education, why would we not want to take a similar model in K 
through 12? What would be the rationale to not take the similar 
model there?
    Ms. Gallagher. Right now, D.C. has more school choice than 
it ever has.
    Mr. Meadows. And I don't disagree with that. But we are 
looking, really, at--what we are talking about is why would we 
force someone to go to a school if we had a scholarship?
    I can tell you I grew up with very humble means. And all I 
wanted was a scholarship to go somewhere where, actually, the 
people that lived in a different zip code could go to school. 
And I said, ``Boy, if I just had that opportunity, you know, it 
would actually be great.'' Now, whether it made a difference 
educational-wise or not, I can't say. But I can tell, from the 
testimony that we have had here from this young lady, who is 
doing--and did well, and is doing so well, even if it made no 
academic difference whatsoever, the pride, the esteem that she 
has, the pride that her mom has that I got to speak to earlier, 
do you not see value in that, Ms. Gallagher?
    Ms. Gallagher. One of the nice things about D.C. is that 
students don't have to go to school in their same zip code.
    Mr. Meadows. Yes----
    Ms. Gallagher. They have full choice across the city.
    Mr. Meadows. I understand that. But if we had--you didn't 
answer my question. If the scholarship that they had basically 
allowed a mom and a daughter to make a choice and be proud of 
where they are going, is there not value in that? Yes or no?
    Ms. Gallagher. I think that satisfaction with your 
education is really important.
    Mr. Meadows. So there is value in that, yes.
    Ms. Gallagher. There is value in making a choice that is 
meaningful for you.
    Mr. Meadows. Okay. So if that is the case, and this money 
is on top of that, on top of public funding and other sources, 
what harm does it do? Who--because you mentioned public 
schools. Is that the harm, is--that you are fearful of, is the 
danger to public schools, or the students?
    Ms. Gallagher. I am here to represent the existing 
evidence, and I don't have the concerns that I think your--that 
you think I have, sir.
    Chairman Chaffetz. Thank you. The gentleman's time has 
expired. We will now recognize Ms. Norton for five minutes.
    Ms. Norton. Thank you, Mr. Chairman. We heard--we have 
heard some testimony about high school graduation rates. And I 
accept that testimony. But we have heard little testimony about 
the schools themselves.
    We are here in a school whose reputation is well 
established, John Carroll High School. Indeed, my own chief of 
staff graduated from Carroll. But I--Mr. Chairman, we have--I 
would like to have this information in the record from the 
Institute of Science and Human Values, which did look, take a 
close look, at some of the schools themselves. We have no 
evidence that Carroll is representative of the schools.
    In fact, let me quote from some of the other evidence. You 
could go to any private school you wanted to go to. And this 
evidence, from the Institute of Science and Human Values, which 
is quoted in the Washington Post, as well, spoke of voucher 
students who went to a school where there were two classrooms. 
And what they said was a soot-stained storefront, where 
students had to use a gymnasium two miles down the road.
    Another school, where 93 percent of the students in the 
school--the school wouldn't have existed, but for the 
vouchers--used a learning model known as Suggestopedia. Now, 
they apparently base this model on an obscure Bulgarian 
philosophy of learning that stresses learning through music, 
stretching, and mediation.
    The Washington Post reported: ``Hundreds of students are 
using their voucher dollars to attend schools that are 
unaccredited or are in unconventional settings, such as a 
family-run K through 12 school operating out of a storefront, a 
Nation of Islam school based in a converted Deanwood residence, 
and a school built around the philosophy of a Bulgarian 
psychotherapist.'' Those are not John Carroll schools, high 
schools.
    Mr. Wolf, why didn't you get actual graduation rates, 
instead of parent-reported graduation rates?
    Mr. Wolf. Mr. Chairman, Ms. Norton, we were not authorized 
by our human subjects protocol from OMB to obtain actual 
student graduation rates. We were authorized to do it through 
telephone interviews. But in a follow-up study my team did in 
Milwaukee, we were able to get access to both the 
administrative records on student high school graduation and 
conducted----
    Ms. Norton. So you are saying----
    Mr. Wolf.--the same parent----
    Ms. Norton. That was Milwaukee. You are saying you could 
not have found out that the OMB did not allow you to ask the 
schools to see their graduation--their report of who graduated 
that year?
    Mr. Wolf. It was not permitted in our protocol for this 
study. But in the Milwaukee study we found that the reports of 
the parents agreed with the administrative records in 98 
percent of cases. So that gave us confidence that the parent 
reports----
    Ms. Norton. I just wanted to have it for the record.
    Ms. Gallagher, do you see a flaw in that way of going at 
trying to assess graduation rates in this jurisdiction?
    Ms. Gallagher. I think it is very unusual to use parent 
reports of an outcome that critical to measuring the impact of 
an education program.
    Ms. Norton. I don't understand that, when it came to the 
safety of students, I would have been very gratified if, as 
reported, parents were--saw improvement in the safety of 
students. But the students themselves did not report 
improvement in the safety of students. Can either of you 
account for that difference?
    Mr. Wolf. Mr. Chairman, Ms. Norton, I would just add that, 
in the overall safety scale that we used, yes, there was no 
significant difference in the reports for students offered 
scholarships, compared to the control group. When we broke it 
out by individual items, individual safety items, there were 
some significant benefits to the choice program, based on the 
reports of students, in terms of the more serious sorts of 
threats to safety, like students bringing guns to school, and--
--
    Ms. Norton. All right, but not safety--my time is running 
out.
    [Laughter.]
    Ms. Norton. You said that--and I am quoting from you, and I 
am interested in this, because the ostensible reason for the 
program was to help the lowest-achieving students in the worst 
schools in the District of Columbia. You found that there were 
no significant impacts on the achievement of students that this 
program was most designed to benefit: those who had previously 
attended public schools identified for improvement and 
corrective action, and the rest.
    Can you explain why there was no improvement in the very 
students who apparently generated the need for this program?
    Chairman Chaffetz. The gentlewoman's time has expired, but 
the gentleman will have ample time to respond.
    Mr. Wolf. Mr. Chairman, Ms. Norton, we did a statistical 
study. We didn't actually get sort of inside the black box to 
identify the sorts of specific factors that you mentioned.
    I would just add, though, that the students from needs-
improvement schools did graduate at much higher rates, just 
like the students that were not from needs-improvement schools. 
There were no significant impacts of the program on their 
achievement, but they did graduate at higher rates.
    Chairman Chaffetz. Thank the gentlewoman. We will now 
recognize the gentleman from North Carolina, Mr. Walker, for 
five minutes.
    We will need to move that microphone here.
    Mr. Walker. Thank you, Mr. Chairman. It is a privilege to 
be here and participate in a very informative hearing. Many 
places to start. Before I would like to start is a quote. It 
says, ``We know that equipping our students to make decisions 
and solve problems independently not only honors their free 
will, but prepares them for college and beyond.''
    Mr. Chairman, that wasn't your quote, wasn't my quote. The 
lady that quoted that was President Mary Blaufuss, right here 
at this wonderful school.
    You know, I am puzzled sometimes why parents are the bad 
guys in this process. I know my parents were very involved in 
our choice of schools, and had a huge impact, as Ms. Blaufuss--
not just college, but beyond. The interesting thing in all of 
this is to understand--instead of people telling students and 
parents what they should be doing, is to offer them the 
scholarship opportunity so that they can flourish.
    My colleague, Mr. Meadows, talked about even if all things 
were even--sort of the three H's that I heard through this 
process. I have heard happy, I have heard hope, I have heard 
healthy. Those kinds of items are very tangible in the life of 
a family, and at the heart of a family, as you see 
opportunities that come about.
    One of the interesting things--and I know, Ms. Gallagher, I 
would like to come to you first, there--you have informed us 
that you were just kind of neutral, just independent, reporting 
the data. There is an interesting piece of data that I think 
was omitted. I am sure it was not intentional on your behalf, 
but it has to do with the reading test scores of students. 
Those who were offered or used an OSP scholarship averaged 
nearly four points higher than the scores of non-OSP students--
time-wise, equivalent to the gain of about three months of 
learning. It is--am I--is that data incorrect, or do you have 
access to that information?
    Ms. Gallagher. I believe those data came from the three-
year measurement period, and not the fourth-year measurement 
period.
    Mr. Walker. Okay. So that is a three-year track.
    Ms. Gallagher. But----
    Mr. Walker. Dr.----
    Ms. Gallagher.--Dr. Wolf can speak to that more clearly.
    Mr. Walker. Great transition. Let's go to Dr. Wolf, just 
for a second, and ask him about the reading achievements 
highlighted in the evaluation.
    Still important, are these gains likely due to the OSP?
    Mr. Wolf. Mr. Chairman, Mr. Walker, the 3.9 average higher 
reading scores was for the fourth and final year of the study. 
It was not statistically significant at the high level of 95 
percent confidence. It was only significant at the level of 94 
percent confidence. So that is why we stated in the final 
report that it was not conclusive. But that was from the final 
year.
    The impacts in reading were larger, and clearly 
statistically significant during the three-year time period. 
But then, our sample changed, as a lot of students graduated. 
So we had a smaller and different group of students for that 
fourth-year study.
    Mr. Walker. Thank you. That is great information to have.
    I think one of the things that is important is look at some 
of the overall data. And I just want to use this opportunity 
maybe--have time for maybe one more question. But I want 
everybody in the room to understand some of the math. We have 
got some bright people in this auditorium.
    In 1981--we spend about $173--I am sorry, about $10 billion 
on education. At the approximate time I believe we had about 46 
or 47 million students in this country, which--equivalent to 
about $222 per student. Now, if you will fast-forward that, we 
have spent $173 billion last year, just from the DoE. But if 
you add the total cost of education, it is $619 billion, which 
equivalates [sic] to about $12,800 per student.
    Now, the bottom line for me in all this is that Congress 
and Washington, we have had our go, or we have had our run at 
the opportunity to tell people where they need to go with 
education, and how we are going to spend it. But is it not time 
to let more and more families have the opportunity to utilize 
such a wonderful scholarship program that offers that hope, 
opportunities for health, and opportunities for happiness?
    If you feel the energy even in the room--and, Ms. Teferra, 
with your testimony, there seems to be a lot to be merit value 
here. And I believe it is time for us in Washington--as Senator 
Scott so eloquently addressed it, this is not a Republican or 
Democrat issue. This is something that we need to return power, 
certainly, to the parents and to these wonderful students.
    Thank you. I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman. I will recognize 
the ranking member, Mr. Cummings, for five minutes.
    Mr. Cummings. Thank you very much. I am going to take our 
discussion in a little bit different direction, because, you 
know, in Baltimore we have a situation where I meet with 
students. And we have so many students that are angry. They are 
angry that they have not gotten a good education. And they 
blame not Republicans, not Democrats, but adults. Little boy 
sitting in the ninth grade, wanting to be a doctor, cannot 
read.
    And there is a warning that must go out to all of us, that 
it is--nobody is saying that people shouldn't have choices. I 
am telling you, I want parents to--I applaud the parents who go 
out there and fight for their kids. As a matter of fact, I 
encourage parents to do that. I think it is important. I think 
that is our responsibility, as a parent. But the question 
becomes what truly are the choices.
    Now, Ms. Teferra, I want you to understand there is nobody 
up here that does not want every child--not just your child, 
but every child--to have the same kind of education we would 
want for our own children. That is my standard. I want your 
child to have the same kind of education I would want for my 
child. And that is important to me, considering my own journey.
    When I listened to Representative--Senator Scott, I could 
relate to almost everything he said, because I been there. And 
I understand that, without an education, I wouldn't be sitting 
here today. I got that.
    But I want to ask you, Ms. Gallagher, and probably you, Mr. 
Wolf. A lot of people don't understand what goes into how 
significant the environment is that a child learns in. I will 
never forget visiting a school, and the school had just opened 
in Baltimore, and they--and when I was talking to the various 
kids in different parts of the school, and they said--I asked 
them. I said, ``What do you like most about this school?''
    You know what they said, almost every one of them? ``I 
don't have to watch my back.'' How significant is that? That is 
the safety, the environment?
    And then, you know, when I listen to Ms. Tomdio and to Ms. 
Teferra, there is another factor that I want you all to 
address. And that is that when you have parents who are 
fighting for their kids, it makes a big difference, a big 
difference. And I wonder how--Ms. Tomdio probably would have 
done almost anywhere, as long as she had that parent fighting 
for her and backing her, and if she were put in an environment 
where she felt safe.
    A lot of people don't even know what it is to be in an 
environment and try to learn when you don't feel safe. And I 
know there are people in this audience probably that know 
exactly what I am talking about. If you don't feel safe, it is 
kind of hard to learn.
    So, Mr.--Dr. Wolf and Ms. Gallagher, would you comment on 
that? Because I think we are facing in this country a situation 
where not hundreds, but thousands of children are not being 
properly educated, and they are coming back now and saying--and 
blaming us, as adults. And of all the things that Senator Scott 
said I agree with the most, it shouldn't be a Republican, it 
shouldn't be a Democrat, this is about America. This is about 
us educating all of our children, every one, whether they are 
in Baltimore, or whether they are in Little Rock. Every one of 
them.
    So, Mr. Wolf--Dr. Wolf, I am sorry, Ms. Gallagher?
    Mr. Wolf. Mr. Chairman, Mr. Cummings, I certainly 
underscore your point about school safety being crucially 
important. It is important for parents, it is important for 
children.
    What we found in our focus groups that we did to supplement 
the official government evaluation, we found clear messages 
from parents that their first priority when they made their 
first school choice was really to put their child in a safer 
school. Because if their child wasn't safe, it really didn't 
matter to them how good the academics was. Once they felt they 
had their child in a safe school, then they were more critical 
about the academic program, and sort of pushed them on the 
academic side. But safety is fundamental for families in urban 
environments.
    And one reason why they viewed their private schools as 
safer in--through the Opportunity Scholarship Program was they 
are a lot smaller. Basically, the average school attended by a 
student in the scholarship program was half the size of the 
average school attended by students in the control group. With 
that smaller size, you can get a safer educational environment.
    Mr. Cummings. Ms. Gallagher?
    Ms. Gallagher. So safety inside and outside of school can--
--
    Mr. Cummings. Talk about parenting, how significant that 
parent fighting for their kid is. I mean--go ahead.
    Ms. Gallagher. That is not an area that I am as familiar 
with. I have done some research in D.C. about the choices that 
parents in very isolated communities have to make about school. 
And my evidence suggests that they feel that they have many 
options. Some of them are harder to get to. So transportation 
can be difficult. And sometimes, while the teaching 
environments are great in the schools, their students need some 
wrap-around services, some supports to help them learn.
    Mr. Cummings. And do they get that in the private schools? 
I am just--I mean the wrap-arounds you are talking about.
    Ms. Gallagher. My understanding, from the evidence that 
came out of the evaluation, the 2010 evaluation, is that the 
private schools had fewer wrap-around supports than the public 
schools do.
    Mr. Cummings. Thank you, Chairman.
    Chairman Chaffetz. Thank the gentleman. Now I recognize the 
gentleman from Iowa for five minutes.
    Mr. Blum. Thank you, Chairman Chaffetz. I would also like 
to thank the panelists for sharing your experiences today and 
your insights with us. And, as well, I would like to thank 
Archbishop Carroll High School for hosting this event today.
    I had the pleasure of running into your varsity men's 
basketball coach in the hallway, Coach Fudd, and I had no idea 
the rich basketball tradition Carroll High School had. Some of 
the notable graduates are Coach John Thompson, who went on to 
fame at Georgetown University, and Eddie Jordan, amongst 
others. And I committed to the coach that I will be back this 
coming basketball season, sitting in the stands, cheering on 
the Carroll High School basketball team. So I look forward to 
that very much.
    [Applause.]
    Mr. Blum. The reason I am interested in basketball is I 
coached basketball for many years at a high school in Iowa, 
where I am from. And one of the blessings I had is every year 
probably half of my team was made up of kids from the inner 
city of Chicago, whose parents moved to Iowa to escape the 
violence that was present there, in Chicago.
    One of my players, Malcolm, became an orphan when he was 
playing for me. His father was murdered in a drug deal gone bad 
in Chicago, his mother died of cervical cancer at the age of 
42. And we took Malcolm into our family. And here is a young 
man that, when he came to Iowa in the sixth grade from the 
inner city of Chicago, could not read. Could not read. And I am 
so proud and pleased and happy to say that last year Malcolm 
graduated from college with honors. And so--yes.
    So, Malcolm experienced his own version of an Opportunity 
Scholarship. And I want to make sure that all children, 
regardless of their zip codes, across this nation have the 
opportunity to experience their own versions of the Opportunity 
Scholarship. It is because of Malcolm and my own personal 
experiences I am very interested in education and how it can 
improve.
    My first question today would go to Dr. Wolf. Doctor, your 
research has shown school choice programs increase graduation 
rates, and I would like to hear from you on what you think 
makes these programs so successful. Is the school districts in 
Washington, D.C. unique? Or could these be successful 
throughout the country?
    Mr. Wolf. Mr. Chairman, Mr. Blum, we have done some 
research on some--you know, by visiting schools, by visiting 
high schools that are part of choice programs. And there 
certainly are a variety of factors that seem to be contributing 
to these higher graduation rates. One is universally high 
expectations for students. They really send out a signal they 
believe that all these students can graduate from high school, 
and the students internalize that, and it becomes confidence-
building for them.
    They also tend to have some programs--they are not 
necessarily the official wrap-around programs that Ms. 
Gallagher mentioned, but many of them do have special programs 
that allow kids to recover credits that they lost because they 
fail a class. So these include after-school study programs, 
where they can make up course material, where they can make up 
credits. It also includes Saturday--going to school on 
Saturday. Basically, pushing them harder and giving them more 
opportunities to master the material that allows them to 
graduate and move on. So, those are sort of the main things.
    And then, also, just a philosophy. A administrator at a 
school in Milwaukee, private school in Milwaukee, said, ``The 
main philosophy is that graduating from high school is a three-
legged stool. And the three legs are the student, the parent, 
and the school, and they all really have to do their part to 
support the effort, and then the students get through.''
    Mr. Blum. Also, Dr. Wolf, as part of your study that you 
sent--you sent a survey, I believe, to public school 
principals, to ask how they were planning to respond to having 
their students being offered scholarships. Is that correct?
    Mr. Wolf. Yes, that is correct.
    Mr. Blum. And did these principals indicate any changes 
they intended to make in their public schools, as a result of 
these scholarship offers?
    Mr. Wolf. Mr. Chairman, Mr. Blum, 28 percent of them said 
they had made changes in response to the Opportunity 
Scholarship Program. Many of those changes were focused on 
communicating better and more frequently with parents about the 
programs that their school offers, about the opportunities in 
their school, about, you know, what their student could do. So 
those were the main areas.
    Some of them established new programs, specifically 
targeted at the demographic of students eligible for the OSP. 
But a lot of the efforts were more sort of communicating more 
effectively with parents.
    Mr. Blum. Thank you. And I can tell by the glance of the 
chairman that the five-minute clock has expired. And just once 
again I would like to thank Carroll High School for having us, 
and I look forward to being in the stands when we play either 
St. John's or DeMatha High School next basketball season.
    And, with that, I yield back, Mr. Chairman.
    Chairman Chaffetz. Thank the gentleman. We will now 
recognize Ms. Norton again for five minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Ms. Gallagher, your testimony has really a stunning 
statistic, when one understands the District of Columbia. The 
District of Columbia has been a city which always had a large 
middle-income and upper-income group of parents and residents. 
And they typically went to our best private schools. You report 
that there has been a 50 percent decrease in private school 
enrollment in the District of Columbia. Could you offer any 
possible explanations for that really quite extraordinary 
figure?
    Ms. Gallagher. Unfortunately, I don't have any good reasons 
why we are seeing that. But we are seeing that decline.
    Ms. Norton. So could you offer some hypothesis as to --
since these--the District has experienced an enormous increase 
in population. So, by process of elimination, we know it is not 
because they left town. So could you offer some hypotheses of 
what this means, that these parents are not any longer going to 
private schools?
    Ms. Gallagher. I am not comfortable offering hypotheses. 
But I do know that more middle-income and higher-income parents 
are choosing public schools in D.C.
    Ms. Norton. And I can tell you that many of them also are 
choosing the public charter schools, so they look like they do 
have choices here, choices that they don't have in many 
jurisdictions around the United States.
    Now, I am puzzled by the difference between the graduation 
rates, and not knowing what contributed to it, because, Mr. 
Wolf, you did not examine the rigor of the curriculums of the 
schools involved. And, of course, I gave you some examples of 
some schools that, of course, are not the John Carroll 
standard. But you did not look at the curriculums of the 
schools that would show these graduation rates.
    So, we don't know anything about the effect of those 
curriculums, whether they were good or not good, whether they 
were schools that were less rigorous--at least some of them--to 
get through. We don't have any of that information. All we have 
is the raw information on the graduate rates.
    Mr. Wolf. Mr. Chairman and Ms.----
    Ms. Norton. And those are parent views of what the 
graduation rates were.
    Mr. Wolf. Mr. Chairman, Ms. Norton, we do--it is public 
knowledge which high schools in the District of Columbia 
participate in the program, and they are John Carroll, they are 
Sidwell Friends, they are St. John's, they are Gonzaga, they 
are----
    Ms. Norton. I am sorry, I am not just talking about high 
schools.
    Chairman Chaffetz. Something happened to that microphone 
real quick. I don't know what happened to it. Maybe it ran out 
of a battery there.
    Ms. Norton. Did you only look at high--you looked at high 
schools and graduation rates. Did you look beyond high schools?
    Mr. Wolf. [No response.]
    Chairman Chaffetz. Why don't we pass this microphone there? 
I think we can take it off the stand and--just take it off. 
There we go.
    Mr. Wolf. So, Mr. Chairman, Ms. Norton, we do know which 
schools we are talking about, which high schools. So all of the 
students in our attainment sample were in eighth grade or 
higher when they entered the program.
    And so, generally, this is the effect of the high schools 
that were participating in the program, and that is John 
Carroll, that is Sidwell Friends, that is St. John's Prep 
School, it is Gonzaga, it is Georgetown Visitation. And, I 
mean, I just find it difficult to believe that these elite 
college prep schools somehow lowered their standards to boost 
this high school graduation rate. I think it is real.
    Ms. Norton. I would agree with you, that I would 
hypothesize that these students had successfully completed 
rigorous curriculum. I would like to know more about them, of 
course, because I could only hypothesize that.
    And finally, Mr. Chairman, we have heard great kudos today 
about the D.C. program, and I do think I have to say once again 
if the D.C. program is to be so lauded and praised, why does 
not the Republicans' own education bill that is pending and 
being worked now, simply expand that program for the rest of 
the country?
    Chairman Chaffetz. Well, thank you. And I will now 
recognize myself for five minutes to address that, and talk 
about some of these other issues.
    And I agree with a lot of what Mr. Cummings said. I think 
there is probably something--there is nothing more powerful 
than a parent fighting for their child. And we heard that in 
part of the testimony. And we could listen to all sorts of 
statistics and analysis. I think they are important to look at 
metrics. I am not trying to dismiss them. But I have no 
questions for Dr. Wolf or Ms. Gallagher. Good quality people, 
and appreciate the dialogue.
    But my questions are really for the two people who have 
gone and lived through the program. And, you know, I have lived 
in affluent areas. And I recognize now, as an adult looking 
back, a lot of the kids that I am friends with now, they didn't 
have those same types of opportunities. They didn't have--they 
didn't go to the same nice school that I did.
    And you know, in Utah, we spend about just over $6,000 per 
student. We spend more than $20,000 per student in Washington, 
D.C. And yet our graduation rates are much, much higher. Much 
higher. They are higher than the national average, and we have 
the lowest per-pupil spending.
    Now, there is lots of different reasons why I think that is 
probably the case. But going back to why don't we make this a 
national program, Utah doesn't want it to be a national 
program. We want the Federal Government out of our business. We 
want them out. We want to be able to make those decisions.
    The question for Washington, D.C.? Well, then, why are we 
different? Because they are not a state. They are different. We 
are different under the Constitution.
    We are trying to give an opportunity here, in Washington, 
D.C., that we have heard great things about. We heard from this 
dais here that, by offering this scholarship, by empowering 
parents to make these types of choices in their schools, that 
it is an abuse of power, that it is inappropriate for Congress, 
that it lacks respect--that Congress lacks respect by 
allocating and appropriating money that came from all over the 
nation to give that to parents in forms of this scholarship.
    And so, we will start with Ms. Tomdio. Do you see anything 
negative from this program?
    Ms. Tomdio. Well, as a recipient of this, I really do not 
see anything negative for the people that are in this program, 
and the parents that are given this opportunity. It is an 
advantage for us, I would say, because, as--D.C., we are not a 
state. So we are given some type of leeway. And I think it is a 
great opportunity for us to----
    Chairman Chaffetz. So if you were sitting here in our seat, 
and this bill came up to vote, and you had to decide no, no 
money, no scholarships, or yes, let's allocate tens of millions 
of dollars, and let's give more scholarships to more people, 
how would you vote?
    Ms. Tomdio. When you say give more scholarships to more 
people, in D.C. or just around----
    Chairman Chaffetz. In Washington, D.C.
    Ms. Tomdio. I would say yes, to give these students, these 
parents, more opportunities to keep getting us educated and 
keep fulfilling our dreams.
    Chairman Chaffetz. And if we can now move the microphone 
there to Ms. Teferra, do you think more people should have this 
opportunity or less people should have this opportunity?
    Ms. Tomdio. First of all, Chairman, thank you for the 
question. I hear for and not-for for this program. I--as a 
parent, I--believe me, I prefer--I was prefer to have equal 
opportunity, high-standard education opportunity for all.
    My daughter stayed at E.L. Haynes public charter school the 
eight years. She started as a kindergarten. And moving when she 
was at fourth grade and so forth, the education that I expect, 
it is not there any more. The challenge itself. She gets bored, 
unhappy, and just--any homework, any lesson, she just breeze 
through it. And she comes, we discuss every day, because her 
education, her life, is very important to me and to her, her 
future.
    So, I didn't see any improvement. I have talked to the 
principal, Ms. Jenny Niles. I have talked to the PTA. I go to 
PTA. And nothing has been improved. So my other path is to look 
for another public--private school to fulfill Yalemwork's 
dream. As a parent, I have to back that up.
    So, finally, we started applying for private schools and 
public schools, as well. And she accepted all three of them: 
Sidwell Friends, Maret, and the School Without Walls. And we 
have to sit down and make a decision, which one. And we 
discuss, and she said she choose one, which is Sidwell Friends. 
And she did get another second opinion. And then she picked 
Sidwell Friends.
    So my thing is this, though. I heard everything that been 
said, as in high school, public school or public charter 
school, should have the same type of education. But for me, and 
for Yalemwork, time is ticking. What do I do? What is my other 
choice? And I have to choose what is available to me and to 
Yalemwork, because I wanted her to do the best and become a 
wonderful citizen.
    So, I would say I will support--at the moment, I support, I 
said yes.
    Chairman Chaffetz. Thank you. Now I recognize Mr. Cummings 
for five minutes.
    Mr. Cummings. And, Ms. Teferra, I mean, I was listening to 
you very carefully. Your daughter left a lot of other children 
in the public schools, right? And how--I mean do you feel--when 
the chairman was asking the question about the children, and 
what expanding the program, I am sure you would want those 
other parents not to just be subjected to a lottery, but to be 
able to have the kind of opportunity that your daughter had, 
right? The ones that are left in the public schools. I am just 
curious.
    Ms. Teferra. Yes, I know what you mean. But everybody has--
--
    Mr. Cummings. And I am not--first of all, I agree with you. 
You got to fight for your child, no matter--but I am just--and 
that is the point that we are making. It is not about not 
wanting your child to have the very best. We want all children 
to have the kind of opportunities where they can go to school 
in a decent building, have the kind of things they need, not 
reading from a book from 1973. We want all children to have 
that, because that is what makes our society strong and better. 
But go ahead.
    Ms. Teferra. Everybody has a choice, don't they?
    Mr. Cummings. No, they don't. No, a lot of people are--the 
same people that your child left in the school that you were 
not satisfied with, they still there.
    Ms. Teferra. I understand. That is something that has to be 
improved.
    Mr. Cummings. It does.
    Ms. Teferra. So then, like I said, what do I do? She is in 
eighth grade, and I see potential in her. What is my choices?
    Mr. Cummings. Yes. Again, I understand that. But I just 
want to make sure you were clear that we want you to do what 
you need to do, but we also want to look out for all those 
other children, too.
    Ms. Teferra. I care for them, too.
    Mr. Cummings. Yes.
    Ms. Teferra. I do.
    Mr. Cummings. Ms.--and one last question.
    Ms. Gallagher, Congresswoman Norton was asking you about 
the decrease in private school enrollment, and it was an 
excellent question.
    But I was wondering if--and I know you didn't have as much 
information as we would have liked, but is that the trend in--
nationally? Do you know that? In other words, for private 
schools to be decreasing?
    And, you know, I am searching for answers for the very --so 
that our children can have opportunity. And it sounds like the 
charter school movement here in D.C. is being very effective, 
based upon the figures that you just were--you know, put out 
there. Can you comment?
    Ms. Gallagher. I think that you asked me two questions.
    Mr. Cummings. Yes, I did.
    Ms. Gallagher. Okay. One is do I know whether the----
    Mr. Cummings. It is a trend for private schools to be 
decreasing.
    Ms. Gallagher. And I am familiar with D.C. and not as 
familiar with other cities. I am sorry.
    But on the topic of whether the charter school system here 
is responsible--is causing all the improvements we see, I think 
that we don't know the answer to that question. I wish we did.
    We also have an open enrollment system, which allows 
students in D.C. to apply to any school in the city. And that 
is a very--oh, sorry, any public school in the city. And that 
is a very unusual arrangement. It allows for a lot of choice 
for parents across the city.
    Mr. Cummings. So would you say that that may be largely 
helpful, with regard to the trend that----
    Ms. Gallagher. I think, together, those choices are part of 
the story about why we are seeing improvements in D.C.----
    Mr. Cummings. And, apparently, the schools may be getting 
better, then. Would you--is that a reasonable assumption?
    Ms. Gallagher. [No response.]
    Mr. Cummings. In other words, people are moving--you are 
saying people are moving and they have got choices to go to 
different schools, and they are doing better. I think you 
mentioned some test scores, or whatever. So they are doing 
better. But you----
    Ms. Gallagher. Yes, test scores have been increasing over 
time, and a number of different reforms have been going on at 
the same time. There have been major personnel changes in D.C. 
There have been new curricula and standardized tests. There 
have been big investments in facilities in D.C. And so, all of 
those things can contribute to improved test scores.
    Mr. Cummings. Thank you, Mr. Chairman.
    And again, I want to thank our witnesses very much for your 
testimony. We do have challenges all over the country. And 
education is so very, very important. And we are going to 
continue to work hard to make sure that every child can walk 
into their destiny. Thank you.
    Chairman Chaffetz. Thank you. I want to thank everybody's 
participation today. I want to thank Senator Tim Scott for 
being here, and being an important part of this discussion.
    I want to thank the four of you, and congratulate you, in 
particular, Ms. Tomdio, and your future. You represent the best 
of what is happening, and we are proud of you and wish you 
nothing but the best of hope and luck, and everything else. But 
I have no doubt about your tenacity to get it done and make 
things happen. And we are proud of you, and we wish you nothing 
but the best.
    And her parents, are they in the audience? Can we recognize 
them? Where are her parents? Let's see. Stand up. Thank you.
    [Applause.]
    Chairman Chaffetz. Very good. And, to Ms. Teferra, I don't 
know if your--do you have your--any relatives here that we 
should recognize, or----
    Ms. Teferra. No, I came by myself.
    Chairman Chaffetz. No? Very good. She is----
    Mr. Cummings. She is in school.
    Chairman Chaffetz. School, I hope, right?
    [Laughter.]
    Chairman Chaffetz. All right, good. Listen, and thank you 
so much to Archbishop Carroll High School.
    This is a great facility, great students. And we wish you 
nothing but the best. We are proud to be here, we are honored 
to be here. Thank you for your time and attendance today.
    The committee now stands adjourned.
    [Whereupon, at 11:43 a.m., the Committee was adjourned.]

                                 [all]
</pre></body></html>
